FDIC Office of Inspector General Press Release: Marshall County Bank Embezzler Sentenced to Prison
News Release
United States Department of Justice
United States Attorney
Northern District of Mississippi
Contact: John Marshall Alexander
Chief, Criminal Division
PHONE: (662) 234-3351
900 Jefferson Avenue	662/234-3351
Oxford, Mississippi 38655-3603	FAX 662/234-3372
FOR IMMEDIATE RELEASE
May 22, 2013
www.justice.gov/usao/msn
MARSHALL COUNTY BANK EMBEZZLER SENTENCED TO PRISON
OXFORD, Miss. Felicia C. Adams, United States Attorney for the Northern District of Mississippi, Laurie Younger, Special Agent in Charge of the Dallas Region, Office of Inspector General for the Federal Deposit Insurance Corporation and, and Daniel McMullen, Special Agent in Charge of the Federal Bureau of Investigation in Mississippi, announce that:
Deborah Shaw, 53, of Waterford, Mississippi, former employee of Merchants and Farmers Bank in Holly Springs, has been sentenced by United States Senior District Judge Neal B. Biggers, Jr., in Oxford, Mississippi, following her plea of guilty last fall on one count of embezzlement by a bank employee.
Judge Biggers ordered Shaw to serve 30 months in prison, followed by 5 years supervised release. She was also ordered to pay restitution in the amount of $327,842.00.  Ms. Shaw has been ordered to report to prison on June 17.
United States Attorney Felicia C. Adams stated:   âThe sentence Ms. Shaw received reinforces the message that federal courts view embezzlement as a serious crime that warrants significant punishment.
The United States Attorneyâs Office is committed to holding those who abuse their authority accountable
for their illegal activities.â
Federal Deposit Insurance Corporation Special Agent in Charge Younger stated:  âThe Federal Deposit Insurance Corporation (FDIC) Office of Inspector General is pleased to join our law enforcement colleagues in bringing Ms. Shaw to justice.  We are especially concerned when trusted insiders abuse their positions to harm the financial institutions that employ them.  We will continue our efforts to investigate such abuses in FDIC-insured financial institutions throughout the country.â
Daniel McMullen, Special Agent in Charge of the Federal Bureau of Investigation in Mississippi, stated:  âWorking alongside our law enforcement partners, we will use every appropriate tool and available resource to find, stop, and punish those who commit fraud schemes that impact our financial institutions.â
This case was investigated by the Office of Inspector General for the Federal Deposit Insurance Corporation and the Federal Bureau of Investigation and was prosecuted by Assistant United States Attorneys Robert J. Mims and Clayton A. Dabbs.
# # #